STATE OF MINNESOTA
IN SUPREME COURT

January 15, 2020

Office of
Afpbjjute Courts

A19-1822
State of Minnesota,
Respondent,
vs.
Michael Carlton Lowe, Sr.,
Petitioner.

ORDER
On November 14, 2019, the court of appeals dismissed this appeal, which is taken
from the district court’s orders that denied petitioner’s claims for civil relief that were filed
in his criminal case. The deadline for filing a petition for review of this decision was
December 16, 2019. See Minn. R. Civ. App. P. 117, subd. 1 (requiring a petition for review
to be filed “within 30 days of the filing of the Court of Appeals’ decision”). On December
3, 2019, petitioner Michael Carlton Lowe, Sr. filed a motion for reconsideration with the
court of appeals, which was rejected because the appeal was no longer open in that court.
On December 18, 2019, Lowe submitted a petition for review, which was rejected because
it was untimely. On January 7,2020, Lowe filed a motion to accept a late petition for review,
stating that he had received the court of appeals’ November 14 order late because he had
been relocated to another correctional facility.
!

APPEBDINCE-B

1

Minnesota Rule of Civil Appellate Procedure 117 requires a petition for review of a
decision of the court of appeals to be served and filed within 30 days of the filing date of the
court of appeals’ decision. By the time petitioner filed his motion, the deadline for filing a
petition for review, December 16,2019, had expired. Although Minn. R. Civ. App. P. 126.02
generally authorizes the court to extend time limitations for good cause shown, it specifically
provides that “[t]he appellate court may not extend... the time prescribed by law for securing
review of a decision or an order of a court. . . except as specifically authorized by law.”
Thus, an extension of time to file a petition for review of a decision of the court of appeals
in a civil case, such as this one, is not authorized by the Rules of Civil Appellate Procedure.
Further, we have only excused late filings in “exceptional” or “peculiar” circumstances. See
In re Welfare of J.R., 655 N.W.2d 1, 3^4 (Minn. 2003). We have not done so based on
negligence, inadvertence, or oversight with respect to the requirements of the rules governing
appellate proceedings. Id. at 4. Even though the November 14 order was sent to a different
correctional facility, Lowe had sufficient time to prepare and submit a motion for
reconsideration to the court of appeals. As the circumstances of this case are not exceptional,
we cannot excuse the late submission of a petition for review.
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the motion of Michael Carlton Lowe, Sr. to accept
a late petition for further review be, and the.same is, denied.
BY THE COURT:

Dated: January 15, 2020

Lorie STuildea
Chief Justice
2

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

2009 WL 437493
Only the Westlaw citation
is currently available.
NOTICE: THIS OPINION IS
DESIGNATED AS UNPUBLISHED
AND MAY NOT BE CITED
EXCEPT AS PROVIDED BY
MINN. ST. SEC. 48oA.o8(3).

testimony was not intentionally
elicited by the prosecutor. The
reference to the defendant's prior
prison time was made in passing
and was an isolated, nonrecurring
incident. Moreover, the court gave
the jury a curative instruction that
the defendant's counsel drafted.
Cases that cite this headnote

Court of Appeals of Minnesota.
STATE of Minnesota, Respondent,
v.

Michael C. LOWE, Sr., Appellant.
No. A07-2321.
Feb. 24, 2009.
Review Denied May 27, 2009.
West KeySummary
1

Criminal Law
$=* Incarceration
A passing testimonial reference
to the defendant's criminal record
did not justify a mistrial.
The defendant was charged
with criminal sexual conduct,
assault, and terroristic threats for
physically and sexually assaulting
his fiancee. At trial, an officer
testified that the victim told
him she was afraid because the
defendant had been in prison
for murder and she thought the
defendant would kill her. That

Hennepin County District Court, File No.
CR-07-022594.
Attorneys and Law Firms
Lori Swanson, Attorney General, St. Paul,
MN, and Michael O. Freeman, Hennepin
County Attorney, Donna J. Wolfson,.
Assistant County Attorney, Minneapolis,
MN, for respondent.
Michael C. Lowe, Sr., Rush City, MN, pro
se appellant.
Considered and decided by WORKE,
Presiding Judge; LANSING, Judge; and
KLAPHAKE, Judge.

UNPUBLISHED OPINION
WORKE, Judge.
*1 Appellant challenges his convictions
of first-degree criminal sexual conduct,
third-degree assault, and terroristic threats,
arguing that the district court (1) abused
its discretion by denying his mistrial motion

APPENDICE-C
WESTLAW

© 2015 Thomson Reuters. No claim to oriainal U.S. Government Works.

Respons. Memo 15 1

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

after the prosecutor elicited inadmissible
evidence regarding a previous imprisonment
and (2) erred by imposing a double-upward
departure in sentencing without a jury
finding that he is a danger to public safety
as required under the dangerous-offender
statute. Appellant also raises several issues
in his pro se supplemental brief that we
conclude are without merit. We affirm.

FACTS
On April 8, 2007, officers responded
to Abbott Northwestern Hospital for a
reported domestic assault. The victim, H.W.,
reported being physically and sexually
assaulted by appellant Michael C. Lowe,
her fiance. The assault took place at the.
couple's residence throughout the previous
day. H.W. reported that appellant was angry
with her and accused .her of infidelity.Appellant slapped and punched H.W. in the
face, head and abdominal area, and kicked
her in the legs. Appellant threw H.W. on
the bed and forcefully penetrated her anally
and vaginally. While appellant was sexually
assaulting H.W., he grabbed her neck, struck
her in the rib cage, pulled her hair and struck
her head against the bed. During the assault
appellant also threatened to kill H.W. and
her children and burn down her house. H.W.
had scratches and bruises on her face, two
black eyes, a broken nose, and a cut on her
lip that required seven stitches.
Appellant was charged with first-degree1
■criminal sexual conduct, third-degree
assault, and terroristic threats. A juryr
found appellant guilty as charged; The jury'

WF^Tl AW

Of)Thnmcon Rontorc

also found that aggravating factors existed.
Based on the jury's findings, the district court
sentenced appellant to an upward departure
of 360 months in prison. This appeal follows.

DECISION
Mistrial
Appellant argues that the district court
abused its discretion by denying his motion
for a mistrial. This court reviews a district
court's denial of a motion for a mistrial
for abuse of discretion. State v. Spann, SI A
N.W.2d 47, 52 (Minn. 1998). “[A] mistrial
should not be granted unless . there is a
reasonable probability that the outcome of
the trial would be different” if the event that
prompted the motion had not occurred. Id.
at 53 (citing State v. Clobes, 422 N.W.2d 252,
255 (Minn. 1988)).
During trial, the prosecutor asked an
officer if H.W. reported- that appellant
threatened her during the assault. The officer
responded: “I don't remember exactly. She
did mention to me that she was afraid.
She said that [appellant] had been in prison.
for. murder .and she was afraid, that he
was going to kill her.” Appellant's attorney,
objected and moved for a mistrial. The
district court denied the motion, determining
that the officer merely repeated the victim's
statement, which went to the theory of fear
and threats, and that there was no proof that
appellant had been convicted of murder.
*2 Generally, evidence from which a jury
could infer that a defendant has a criminal
record is inadmissible. State v. Richmond,

l\lr» Haim tn nrininal I ( .Q

(Girw/ornmnnt \A/nrU"c

Respons. Memo 16 9

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

298 Minn. 561, 563, 214 N.W.2d 694,
695 (1974). But when a reference to a
defendant's prior criminal record “is of a
‘passing nature,’ or the evidence of guilt is
‘overwhelming,’ a new trial is not warranted
because it is extremely unlikely ‘that the
evidence in question played a significant
role in persuading the jury to convict.’
“ State v. Clark, 486 N.W.2d 166, 170
(Minn. App. 1992) (quoting State v. Haglund,
267 N.W.2d 503, 506 (Minn. 1978)). In
Haglund, the objected-to testimony was in
reference to the content of a note that
the defendant ate. 267 N.W.2d at 505. An
officer • testified that the note stated that
the defendant did not want to “get sent to
St. Cloud' again.” Id. The supreme court
concluded that reversal was not necessary
because the prosecutor did not intentionally;
elicit the testimony and the defendant was
not prejudiced because the reference' was
made in passing and the evidence of guilt was
overwhelming. Id. at 506.
In State' v. Manthey, the defendant was
found guilty of murdering her husband. 711
N.W.2d 498, 500- (Mirin.2006). Oh appeal,
Manthey challenged two separate-references
during trial to her custody status. Id. at
505. One statement was made by Manthey’s
daughter, who in response to the question,
“So by-your' testimony for the last two
years your mother had been answerifig the
phone?” responded,“‘No. She's been in jail.”
Id. The second reference was not in the form
of evidence, but'was information learned by
a juror of Manthey's custody status. Id. at
506. Although Manthey involved a current
• incarceration and this case involves a prior
incarceration, the supreme court similarly

analyzed the issue in Manthey for prejudice.
Id. The supreme court determined that
“whatever prejudice was created was not so
fundamental or egregious as to require a
mistrial and was effectively mitigated by the
court's [curative] instructions.” Id.
Here, the prosecutor did not intentionally
elicit the objectionable testimony. Instead,
the reference was made “in passing,” was
isolated, and did not reoccur. Additionally,
the district court gave a curative instruction
that appellant's counsel drafted. The district
court instructed the jury to disregard the
testimony and explained that consideration
of the testimony would result in unfair
double punishment. See Long v. Humphrey,
184 F;3d 758, 761 (8t.h Cir.1999) (discussing
curative alternatives less: dramatic than
mistrial)',. see also State- v. Budreau, 641
Nr.W.2d 919, 926 (Minn.2002) (stating our
presumption that juries follow instructions)..
Further, the officer, merely repeated the
statement, of the victim regarding her
fear-there was no; evidence that appellant
had been convicted of murder. Finally,
because the evidence, against appellant was
overwhelming^ it is. .extremely unlikely that
the officer's statement played a significant
role in' persuading the jury to convict
appellant. Therefore, the district court
did not abuse its',. discretion in denying
appellant’s mistrial motion. . ~ " ■
Sentence
*3 Appellant next argues that the district
court abused its discretion by imposing an
upward sentencing departure pursuant to
the dangerous-offender statute without the
fact-finder determining that appellant is a

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

Respons. Memo 17 3

r.

* —. J *

t —

* ♦

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

danger to public safety. See Minn.Stat. §
609.1095, subd. 2 (2006) (stating that the
district court may impose - an aggravated
departure from the presumptive sentence if
the defendant is convicted of a violent felony,
the court determines that the offender has
two or more prior convictions for violent
crimes, and the fact-fmder determines that
the defendant is a danger to public safety).
The decision to depart from the sentencing
guidelines rests within the district court's
discretion and will not be reversed absent
a clear abuse of that discretion. State v.
Givens, 544 N.W.2d 774, 776 (Minn. 1996).
A district court may not deviate from
a presumptive sentence without specifying
“the particular substantial and compelling
circumstances that make the departure more
appropriate than the presumptive sentence.”
Minn. Sent. Guidelines II.D. Generally,' in
determining whether to depart durationally,
the district court must determine whether
the defendant's conduct was “significantly
more serious than typically involved in the
commission of the offense.” State v. Best,
■ 449 N.W.2d 426, 427 (Minn. 1989). The role
of a reviewing court is to determine whether
the reasons given by the district court in
support of its departure are justified under
the law or supported by sufficient evidence
in the record. Williams v. State, 361 N.W.2d
840, 844 (Minn. 1985). .
’
The jury found that the state proved
beyond a reasonable doubt that aggravating
factors existed, including: appellant violated
the victim's zone of privacy, there was a
child present during the offense, appellant
penetrated the victim anally and vagjnally,
appellant caused personal injury to the

victim as a-result of the sexual penetration,
appellant caused multiple injuries to the
victim, appellant fractured the victim's
nose, appellant's actions resulted in the.
victim suffering a permanent scar to -her
face, and appellant threatened to commit
multiple crimes of violence against the
victim. The district court's sentencingdeparture report adopted the jury-found
factors supporting an upward departure and
included an additional finding that appellant
is a dangerous offender. Because the jurydetermined findings are sufficient to support
the imposition of an aggravated sentence, we
do not need to determine whether the district
court abused its discretion by imposing an'’
upward sentencing departure pursuant to
the dangerous-offender statute.

Pro Se Issues
Sufficiency of the Evidence
. •
Appellant argues that the evidence is
insufficient to support his convictions
because he lacked motive and opportunity.
In considering an insufflciency-of-theevidence claim, appellate review is limited
to whether the evidence, viewed in thelight most favorable to the jury's verdict
was sufficient to support the .verdict.
State v. Webb, 440 N.W.2d 426, 430
(Minn. 1989). This court “must assume.'
the jury believed the state's witnesses and
disbelieved any evidence to. the contrary.”.
State v. Taylor, 650 N.W.2d 190, 206
(Minn.2002). The verdict will remain,
undisturbed if the jury, while giving “due
regard” to the requirements of proof beyond.,
a reasonable doubt and the presumption of
innocence, could reasonably have reached

WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

Respons. Memo 18 4

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

a guilty verdict. Id. The evidence here
includes: the victim's testimony; appellant's
ex-wife's testimony regarding a similar
assault; photos of the victim's injuries; and
physician testimony regarding the injuries.
The evidence is sufficient to support the
convictions.

Arrest
*4 Appellant also argues that his
convictions should be reversed because his
arrest was illegal. The district court did find
that appellant's arrest in his residence was
not supported by exigent circumstances. As
a result, the court suppressed a gun, which
was the only item seized as a result of the
unlawful entry into the home. But the court
determined that it would not dismiss the
charges against appellant because there was
probable cause for the arrest, and it was
inevitable. On appeal from a district court's
finding that a police officer had probable
cause to arrest, this court reviews findings
of fact for clear error, giving “due weight
to inferences drawn from those facts by [the
district court].” State v. Lee, 585 N.W.2d
378, 383 (Minn. 1998) (quotation omitted).
This court determines if probable cause
existed based on an objective inquiry and
review of the totality of the circumstances.
State v. Hussong, 739 N.W.2d 922, *926
(Minn.App.2007).
Here, officers were dispatched to arrest
appellant after the victim reported that
appellant assaulted her and that he was at
home. Therefore, the officers had probable
cause to arrest appellant for suspected felony
assault. And the district court did not abuse
its discretion in refusing to dismiss the

complaint because the only evidence seized
as a result of the unlawful entry was the gun,
which the district court suppressed.

Physician Witness
Appellant argues that the physician who
testified, should not have been a witness
because he based his testimony on medical
records. The physician testified that he
treated the victim after the assault.- The
testimony was admissible, and the physician
was permitted to testify from the medical
records. See Minn. R. Evid. 803(4)
(statements are not hearsay when made
for the purposes of a medical diagnosis
or treatment); Minn. R. Evid. 803(6)
(statements are not hearsay when part of
a record made at the time the information
was transmitted by a person with knowledge,
kept in the course of a regularly conducted
business activity, and, the business regularly
makes a record).
. ...

Spreigi Evidence
Appellant argues that his ex-wife should
not have been permitted to testify regarding
a similar assault. Evidence of past crimes
or bad acts is not admissible to prove the
character of a person or that the person
acted in conformity with that character
in committing an offense. Minn. R. Evid.
404(b). But this evidence may be admissible
to prove factors such as motive, intent,
identity, knowledge, and common scheme
or plan. State v. Kennedy, 585 N.W.2d 385,
389 (Minn. 1998). The decision to admit
such evidence depends on whether (1) the
state has given notice of its intent to
admit the evidence, (2) the state has clearly

WESTLAW © 2018 Thomson Reuters. No claim to oriainal U.S. Government Works.

Respons. Memo 19 5

u -

y .
f

/

State v. Lowe, Not Reported in N.W.2d (2009)
. 2009 WL 437493

indicated what the evidence will be offered
to prove, (3) there is “clear and convincing
evidence that the defendant participated in
the prior act,” (4) the evidence is “relevant
and material to the state's case,” and (5)
the probative value of the evidence is
“outweighed by its potential prejudice to
the defendant.” State v. Ness, 707 N.W.2d
676, 685-86 (Minn.2006). The admission of
such evidence is reviewed for an abuse of
discretion. Id. at 685.
*5 The state gave notice of its intent to
call appellant's ex-wife to testify regarding
appellant's assault of her and indicated
that the evidence would be offered to
prove motive, intent, identity, and common
scheme or plan-(.l) motive: appellant's exwife told him she was leaving him and he told
her that he would kill her before he let her
leave him again and appellant accused H.W.
of being unfaithful; (2) intent: appellant
wanted to cause women to suffer because
his ex-wife wanted to leave and he believed
that H.W. was unfaithful; (3) identity:
appellant threatened to kill each woman,
he punched and kicked both women,
and both offenses occurred in private
residences in the presence of children; and
(4) common scheme: both assaults involved
female victims with whom appellant had
a romantic relationship, he caused both
women numerous physical injuries, and after
each assault he permitted the women to go to the hospital with instructions to he about
their injuries. There is clear and convincing
evidence that appellant participated in
the prior act-appellant's ex-wife testified
regarding the assault, and appellant was
charged with attempted murder and battery

WESTLAW

with substantial bodily harm, ultimately
pleading guilty to battery with substantial
bodily harm. The evidence is relevant
to the state's case for the purpose of
demonstrating motive, intent, identity, and
common scheme or plan of a domestic
assault.
Finally, the probative value of the evidence
was not outweighed by its potential
prejudice. Appellant contends that the
evidence was unfairly prejudicial because
the jury convicted him for being “brutal
enough to beat a woman.” If that is the case,
the jury convicted appellant for assaulting
H.W. Further, this was a case involving a
domestic assault, in which the victim did
not initially implicate appellant and the
evidence of a similar assault supported the
state's burden of proof. See State v. Berry,
484 N.W.2d 14, 17 (Minn.' 1,992) (stating
that the district court should admit the
evidence only when the state's other evidence
is weak and the evidence is needed to support
the state's burden of proof). Therefore, the
district court did not abuse its discretion in
admitting the Spreigl evidence.

Lesser-Included
Appellant next argues that he received double punishment because the charges
stemmed from one behavioral incident to
accomplish a single goal. Under Minn.Stat.
§ 609.04, subd. 1 (2006), an offender may
be convicted of either one but not both of
the following: (1) a lesser degree of the same
crime; (2) an attempt to commit the charged
crime; (3) an attempt to commit a lesser
degree of the same crime; (4) a crime proved
if the charged crime is proved; and (5) a

(5) 2D1P, Thomson Renters; Nn Haim fn nrininsl I I .R ('^nvprnmftnt Works

Respons. Memo 20

r

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

petty misdemeanor proved if a misdemeanor
is proved. Appellant was convicted of firstdegree criminal sexual conduct, the use
of force or coercion to accomplish sexual
penetration; third-degree assault, assault
with the infliction of substantial bodily
harm; and terroristic threats. Minn.Stat. §§
609.342, subd. l(e)(i), .223, subd. 1, .713,
subd. 1 (2006). None of these offenses are
lesser-included offenses. Thus, appellant's
argument is without merit.
DNA Evidence
*6 Appellant also argues that physical
evidence obtained from his person was
obtained as a result of the illegal arrest.
The only evidence seized as a result
of the warrantless entry into appellant's
residence was the gun, which the district
court suppressed. The DNA evidence'was
obtained sometime after appellant's arrest,
which was supported by probable' rcause.'
Appellant's argument has no merit. ■

pleaded not guilty. A jury trial then
commenced.
Under Minn. R.Crim. P. 8.01, if the
defendant does not plead guilty at the initial
appearance following the complaint, the
arraignment shall be continued until the
omnibus hearing. Under Minn. R.Crim. P.
11.10, if the defendant requests, the court
must allow the defendant to enter a plea at
the omnibus hearing and the defendant shall
be tried as soon as possible after the entry
of a not guilty plea. The district court did
not violate the rules; therefore, appellant's
argument fails.

Speedy Trial
Appellant also argues that he was denied his
right to a speedy trial/Under Minn. R.Crim.'
P. 11.10, after a'speedy trial demand, a trial
must commence Within 60 days from the date'
of the demand unless good cause is'shown.
On “May 21, 2007, appellant demanded a
speedy trial: The state argued that there was
good reason to extend the trial date. The
Due-Process Rights
district court determined that appellant's
Appellant next argues that his due-process • attorney had a busy schedule and was most
rights were violated because he was likely not prepared for trial to begin in
arraigned on the day of trial and the two weeks. The court also determined that
Rasmussen hearing was held immediately discovery was not complete, and the DNA
before his trial. On July 26, 2007,: the evidence was not yet available. Given the
district court began a Rasmussen'’healing." number of cases pending and the serious
The Rasmussen hearing was continued to ' nature of the charges against appellant, the
August 6, 2007, at which time the court district court determined that there was good
was reminded that it had not yet made a cause for expanding the time for trial. The
probable-cause determination. Appellant's district court did not err in determining that
attorney asked the court to determine good cause existed to extend the trial date.
probable cause on the face of the complaint.
The court found that probable cause existed,
and appellant was formally arraigned and Prosecutorial Misconduct
WESTLAW © 2018 Thomson Reuters. No claim to original U.S. Government Works.

Respons. Memo 21

7

TT

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

been hit. She was hit in the face, the head,
Finally, appellant argues that the prosecutor
the ribs....
committed misconduct by fabricating
evidence regarding the source of appellant's
And this went on for awhile, as [H.W.]
wounds. Because appellant did not object
stated, but she didn't know for sure
to the alleged misconduct, a new trial will
how long this went on. But eventually
be granted only if the misconduct is plain
[appellant] stopped hitting her. But before
error. State v. Washington, 725 N.W.2d 125,
he did, ladies and gentlemen, you heard
133 (Minn.App.2006), review denied (Minn.
[H.W.] testify that [appellant] picked up
Mar. 20, 2007). “The plain error standard
a towel and wrapped it around his hand
requires that [appellant] show: (1) error;
because he didn’t want to hurt his hand
(2) that was plain; and (3) that affected
anymore. [H.W.] testified that there were
substantial rights.” State v. Strommen, 648
marks, cuts on his knuckles. You also
N.W.2d 681, 686 (Minn.2002). Appellant
heard [an officer] testify that he saw
bears the burden of demonstrating that error •
[appellant's] hand after this happened and
occurred and that it was plain. State v.
there were marks on his knuckles, marks
Ramey, 111 N.W.2d 294, 302 (Minn.2006).
on his hands.
“An error is plain if it was clear or obvious.”
Strommen, . 648 N.W.2d.at 688 (quotation
H.W. testified that appellant wrapped a
omitted). “Usually this- is shown if the
towel around his hand and continued to
error contravenes, case law, a rule, or a
hit her. An officer testified that on April
standard of conduct.” Ramey, 721 N.W.2d
9, 2007, he came in contact with appellant
at 302. If appellant shows plain error, the
and noticed cuts and scratches on his
burden shifts to the state to demonstrate
hands. The prosecutor did not fabricate
lack of prejudice. Id. If there is plain
evidence because there was evidence that
error that affected appellant's substantial
appellant had cuts and marks on his
rights, “we may correct the error only if it
hand. And the prosecutor is permitted
‘seriously affect[s] the fairness, integrity, or
to argue reasonable inferences that can
public reputation of judicial proceedings.’
be drawn from the evidence-that the cuts
“ Strommen, 648 N.W.2d at 686 (quoting
and marks on appellant's hand resulted
State v. Crowsbreast, 629 N.W.2d 433, 437
from the assault. See State v. Young, 710
(Minn.2001)).
N.W:2d 272, 281 (Minn.2006) (stating that
the prosecutor's arguments “must be based
*7 During closing argument, the prosecutor
on the evidence produced at trial, or the
discussed H.W.'s testimony and stated:
reasonable inferences from that evidence”):
[Appellant] started to beat her and he There is no error here.
slapped her with an open hand and he
punched her with a closed fist. He punched
her so many times that [H.W,] couldn't
keep track of how many times she had

WESTLAW

©

Affirmed.

Thomson Ranters. No claim to oriainal U.S. Government Works.

Respons. Memo 22 g

Lowe v. Warden Adm'r/Rush City Correctional Facility, Not Reported in N.W.2d (2011)

2011 WL 3557877

2011 WL 3557877
Only the Westlaw citation
is currently available.
NOTICE: THIS OPINION IS
DESIGNATED AS UNPUBLISHED
AND MAY NOT BE CITED
EXCEPT AS PROVIDED BY
MINN. ST. SEC. 48oA.o8(3).

UNPUBLISHED OPINION
SCHELLHAS, Judge.
*1 Appellant challenges the district court's
dismissal of his petition for a writ of habeas
corpus with prejudice. Appellant argues that
his petition is not frivolous because his arrest
was illegal. We affirm.

Court of Appeals of Minnesota.
Michael Carlton LOWE,
Sr., petitioner, Appellant,
, v.
WARDEN ADMINISTRATOR/
RUSH CITY CORRECTIONAL
FACILITY, et al., Respondents.
No. All-248.
.

Aug. 15, 2011.

Chisago County District Court, File No. 13CV-11-123.
.
. /
Attorneys and Law Firms
Michadl C. Lowe, Sr., Rush City, MN, pro
se, appellant.
Krista J. Guinn Fink, and Lori Swanson,
Attorney General, Kelly S. Kemp, Assistant
Attorney General, St. . Paul, MN, for
respondents.
Considered and decided by SCHELLHAS,
Presiding Judge; PETERSON, Judge; and
MINGE, Judge.

FACTS
In April 2007, the State of Minnesota
charged appellant Michael Lowe with firstdegree criminal sexual, conduct, third-degree
assault, and terroristic; threats, alleging that
he physically and sexually : assaulted his
fiancee and threatened to kill her .and her
children and bum-down her house; State
v. Lews;'No. A07-2321,;2009 WL 437493,
at-*l (Minn.App. Feb. "24, 2009), review
denied (Minn. May 27, 2009). Before trial,
the district court found that the warrantless
arrest of Lowe in his residence was not
supported by exigent circumstances. Id. at
*4. “But the [district] court determined that it
would not dismiss the charges against [Lowe]
because there was probable cause for the
arrest, and it was inevitable.” Id. A jury
found Lowe guilty on all three counts and
found that aggravating factors existed. Id. at
* 1. The district court sentenced Lowe to 360
months in prison-an upward departure from
the presumptive sentence. Id.
Lowe appealed, arguing, among other
things, that “his convictions should be

APPENDICE-D
WESTLAW

(Si ?fl1 R Thnmsnn Rpi itprs Nn Haim tn nrininal I I S nn\/Arnmftnt \A/nrks

Respons. Memo 24 1

State v. Lowe, Not Reported in N.W.2d (2009)
2009 WL 437493

All Citations
Not Reported in N.W.2d, 2009 WL 437493
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

End of Document

V

i'

1*

r

:•

r
i
i

WESTLAW

© 201ft Thomson Renters. No claim to orininal U.S. Government Works.

Respons. Memo 23 g

Lowe v. Warden Adm'r/Rush City Correctional Facility, Not Reported in N.W.2d (2011)
2011 WL 3557877

reversed because his arrest was illegal.” Id.
at *4. This court addressed and rejected
each of Lowe's arguments and affirmed his
convictions and sentence, concluding that
“the. officers had probable cause to arrest
[Lowe],” and “the district court did not
abuse its discretion in refusing to dismiss the
complaint because the only evidence seized
as a result of the unlawful entry was ...
suppressed.” Id. at *4-7.
Lowe filed his first petition for
postconviction relief in June 2009, arguing,
in part, that his arrest was illegal. Lowe v.
State, No. A09-1449, 2010 WL 1658006, at
*1 (Minn.App. Apr. 27, 2010), review denied
(Minn. July 20, 2010). The district court
rejected Lowe's claim, concluding that it was
barred by State v. Knafjla, 309 Minn. 246,
252, 243 N.W.2d 737, 741 (1976), because
he raised the claim on direct appeal. Id. The
district court denied the remaining claims
in the petition on substantive and Knaffla
grounds. Id. Lowe did not appeal. Id.
After two more unsuccessful postconviction
petitions, Lowe filed a petition for a writ
of habeas corpus and an affidavit for
proceeding in forma pauperis in Chisago
County district court. Lowe asserted that he
is entitled to immediate release from custody
because his arrest violated the U.S. and
Minnesota constitutions. The district court
dismissed Lowe's petition with prejudice
under Minn.Stat. § 563.02, subd. 3 (2010),
concluding that Lowe's claim “is frivolous
and has no arguable basis in law or fact.”
This appeal follows.

WPPTl 6W

(cS 90*1ft Thnmcnn Pm itorc

DECISION
The district court may dismiss with prejudice
an action commenced by an inmate plaintiff
who seeks to proceed in forma pauperis,
if the court determines that the action is
frivolous or malicious. Minn.Stat. § 563.02,
subd. 3(a). “In determining whether an
action is frivolous or malicious, the court
may consider whether ... the claim has
no arguable basis in law or fact....” Id.,
subd. 3(b)(1); see also Maddox v. Dep't
of Human Servs., 400 N.W.2d 136, 139
(Minn.App. 1987) (“A frivolous claim is
without any reasonable basis in law or
equity and could not be supported by a
good faith argument for a modification
or reversal of existing law.” (quotation
omitted)). The court may dismiss the action
“before or after service of process, and with
or without holding a hearing.” Minn.Stat.
§ 563.02, subd. 3(c). The district court has
broad discretion in considering proceedings
in forma pauperis and will not be reversed
absent an abuse of discretion. Maddox, 400
N.W.2d at 139.
*2 Lowe argues that his petition is not
frivolous because “exigent circumstances did
not exist to justify [his] warrantless arrest”
and he should “be released from custody ...
until re-arrested in a manner prescribed by
law.” Lowe also argues that DNA evidence
obtained from his person was obtained as a
result of the illegal arrest.
“[H]abeas corpus may not be used as a
substitute for ... appeal or as a cover
for a collateral attack....” State ex rel.

Mr» rdaim In nrininal ! I .Q

Cn\/Drnmont \A/nrU"c

Respons. Memo 25 o

Lowe v. Warden Adm'r/Rush City Correctional Facility, Not Reported in N.W.2d (2011)
2011 WL 3557877

Thomas v. Rigg, 255 Minn. 227, 234, 96 2010 WL 1658006, at *1 (second and third
N.W.2d 252, 257 (1959). A habeas petition postcoiiviction petitions); Lowe, 2009 WL
is properly dismissed where other means are 437493, at *4, 6 (direct appeal). The claims
available to raise the claims. See Kelsey v. are Selous because they have no arguable
State, 283 N.W.2d 892, 893-94 (Minn.1979) baslS ln law or fact The district court
(affirming dismissal of habeas action where therefore did not abuse its discretion in
claims could be and were raised in a dismissing the action under Minn.Stat. §
direct appeal and through postconviction 563.02, subd. 3.
petition). Lowe's claim challenging the
validity of his arrest is an improper attempt . Affirmed.
to use habeas corpus as a substitute for an
appeal. Lowe's claims could be and were
All Citations
raised and rejected ip his direct appeal
and postconviction petitions. See Lowe, Not Reported in N.W.2d, 2011 WL 3557877
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

End of Document

vAiCCTi AiAr

on<*10

tu.-v.~-

ro-v. ,4.-v

L I — —v 1 — • — 1—

— v>i

—

I I

O

r' -v.

W. —V

+ \ f\ I -v t- | > —

RfisnonK. Memo

o

1074

1

.

the jury found nine aggravating factors, including

2

the fact that there was children present, that this

3

happened within the zone of privacy for Ms. Wuollet,

4

I want to focus on the fact that Mr. Lowe is in fact :

5

a violent offender.

6

of murder, previously convicted of assault with great

7

bodily harm and that in fact occurred against Paula

8

Durant who testified in court and who is in court

9

again today.

He had previously been convicted

And then this current offense is

10

clearly a violent offense, a third degree assault,

11 "

terroristic threat and a rape conviction for what he

12

did to Heather Wuollet.

13

This man, Mr. Lowe, is dangerous,

14

to be released he will be a danger to the public, he

> 15

If he is

will be a danger to anybody in his family, he will be

16

a danger to his children and more certainly to Ms.

17

Wuollet and Ms. Durant.

18

the.law as a dangerous offender.

19

type of case that the enhancements are made for.

20

This is the perfect kind of case to give a departure

21

upward.

22

criminal sexual conduct in the first degree.

23

well, the State is asking for an additional five

24

years for the terroristic threats.

25

concede the assault in the third degree and the crim

He certainly qualifies under
I think this is the

The State is asking for 30 years on the

APPENDICE-E
JANE WHISNEY-WILSON

As

The State does

1075

1

sex were part of the same behavioral incident.

2

However, the terroristic threats can be separated out

3

from that.

4

during testimony, he threatened Ms. Wuollet outside

5

of the house right after Ms. Wuollet arrived home

6

that day.

7

her verbally and by picking up a piece of wood, he

8

left for a time period, he left for a couple of hours

9

and that clearly separates the two incidents, the

And the facts of the case that came out

After they argued and after he threatened

10

terroristic threats of threatening to beat her up, to

11

bury her, to hit her with a piece of wood, can be

12

separated from the assault in the third degree, the

13

criminal sexual conduct.

14

incidents and as you know, these are all crimes that

15

can be run consecutively, they are permissive,

16

consecutive sentences and that is what the State is

17

asking for is he be sentenced for 30 years, statutory

18

maximum on the criminal sexual conduct,

19

sentenced to the maximum of five years for the

20

terroristic threats and run them consecutively with

21

the assault in the third .degree run concurrent to the

22

other two.

23
24
25

Those are two separate

He be

At this time X would ask the Court1s
permission for Ms. Wuollet to speak.
She has changed her mind.

JANE WHISNEY-WILSON

She would not

1080
1
2

THE DEFENDANT:

3

THE COURT:

On the grounds of?

That it's my opinion that you

4

received a fair trial; that I ruled that your arrest

5

was inevitable and that there was certainly a

6

mountain of evidence against you in this case.

7

THE DEFENDANT:

At the time of my arrest

8

the police failed to produce probable cause as well

9

as a warrant and forcibly entered my household, which

■ 10

-

that.

you ruled that my arrest was an illegal pretext

11

arrest and a violation of my Fourth Amendment rights.

12

You said that the arrest was a violation of my Fourth

13

Amendment rights but inevitable.

14

warrant was obtained afterwards until 36 hours later

15

after the police had taken me to Hennepin County

16

Medical Center, forcibly taken my DNA from me, after

17

they forcibly entered my household without consent,

18

exigent circumstances or any warrant for my arrest.

19

They came in under suspicion of the allegations made

20

without a search warrant or arrest warrant.

21

misdemeanor warrants _which we know is prohibite.d_to_

22

be executed on a Sunday between the hours of 10 and 8

23

as well as on holidays,

24

of them using that as a matter of the means to come

25

to my household as well to be prohibited.

At that time no

They had

So that also made that issue

JANE WHISNEY-WILSON

So what

